AUDIT OF THE OFFICE ON VIOLENCE AGAINST 

WOMEN TECHNICAL ASSISTANCE COOPERATIVE 

   AGREEMENTS ADMINISTERED BY THE 

 PENNSYLVANIA COALITION AGAINST RAPE 

          ENOLA,PENNSYLVANIA 





        u.s.  Department of Justice
       Office of the Inspector General
                Audit Division


        Audit Report GR-70-12-009 

             September 2012 

                                                                    


                        OFFICE ON VIOLENCE AGAINST WOMEN 

                   TECHNICAL ASSISTANCE COOPERATIVE AGREEMENTS 

                               ADMINISTERED BY THE 

                       PENNSYLVANIA COALITION AGAINST RAPE 

                               ENOLA, PENNSYLVANIA


                                                          EXECUTIVE SUMMARY 


      The U.S. Department of Justice Office of the Inspector General (OIG),
Audit Division, has completed an audit of four Office on Violence Against
Women (OVW) Technical Assistance cooperative agreements, numbers
2009-TA-AX-K024, 2008-TA-AX-K021, 2009-TA-AX-K042, and
2009-TA-AX-K005, awarded to the Pennsylvania Coalition Against Rape
(PCAR). The total award for the four cooperative agreements was
$4,725,000.

       The objectives for these awards included: (1) creating the AEquitas:
The Prosecutor’s Resource on Violence Against Women in Washington, D.C.1,
(2) increasing the capacity of victim service professionals in the U.S.
territories to respond effectively and comprehensively to sexual assault
survivors, (3) developing an increased understanding of sexual assault
within the OVW Rural Grantee Program, and (4) developing an increased
understanding of the priority needs for strengthening sexual assault
advocacy in the U.S. by conducting focus groups and technical assistance
information exchange events, and identifying priority recommendations and
action steps related to sexual assault advocacy.

      The objective of our audit was to determine whether reimbursements
claimed for costs under the cooperative agreements were allowable,
supported, and in accordance with applicable laws, regulations, guidelines,
and the terms and conditions of the cooperative agreements. We also
evaluated PCAR’s program performance in meeting cooperative agreement
goals and objectives and overall accomplishments.

     We determined that PCAR did not fully comply with some of the
cooperative agreement requirements we tested. We reviewed PCAR’s
compliance with nine essential cooperative agreement conditions and found
material weaknesses in three areas. These material weaknesses resulted in
$336,311 in questioned costs. Specifically, we found PCAR:

                                                       
             1
           The original program title in the grant award documents was the AEquitas Center for the Prosecution of 
Violence Against Women.   PCAR stated in its response to the draft report that the title of the project has been 
changed to “AEquitas: The Prosecutor’s Resource on Violence Against Women.”  We have updated the report to 
reflect the revised title. 


                                                                  i
                                        


      	 did not have an adequate level of separation of duties in place for
         the procurement of equipment and supplies,

      	 could not adequately support its payments totaling $298,980 to
         consultants, and provided the maximum consultant rate to all
         consultants without any determination of reasonableness as
         required by Office of Management and Budget (OMB) cost
         principles,

      	 charged unreasonable fees for an administrative assistant’s salary
         totaling $5,246,

      	 charged unallowable lodging expenses which totaled $12,218,

      	 charged unallowable meal and beverage expenses to the
         cooperative agreements which totaled $19,867, and

      	 received income of $64,970 as a result of activities conducted which
         resulted from cooperative agreement funded and developed
         programs.

      In addition, the approved budgets for these cooperative agreements
included indirect costs, such as rent, telephones, insurance, and other
charges within direct cost categories. A total of $29,888 was charged to the
awards that should have been properly categorized and approved by OVW as
indirect costs, along with the required submission and approval of an indirect
cost rate.

     These items are discussed in further detail in the Findings and
Recommendations section of this report. The objectives, scope, and
methodology for this audit appear in Appendix I.

      We discussed the results of our audit with officials at PCAR and have
included their comments in the report, as applicable. Additionally, we
requested a response to our draft report from PCAR and OVW, and their
responses are appended to this report as Appendix III and IV, respectively.
Our analysis of both responses, as well as a summary of actions necessary
to close the recommendations can be found in Appendix V of this report.




                                      ii
                                                   


                                   TABLE OF CONTENTS



INTRODUCTION .......................................................................1 


Office on Violence Against Women .................................................2

Pennsylvania Coalition Against Rape. .............................................2

Cooperative Agreements ..............................................................4 

Our Audit Approach .....................................................................4 

 
FINDINGS AND RECOMMENDATIONS........................................6 


Internal Control Environment .......................................................6

Cooperative Agreement Expenditures ............................................7

Accountable Property................................................................. 15

Drawdowns ............................................................................. .15

Reporting ............................................................................... .16

Budget Management and Control................................................. 18

Program Income ....................................................................... 19

Program Performance and Accomplishments ................................. 21

Compliance with Other Cooperative Agreement Requirements ......... 24

Other Reportable Matters ........................................................... 25

Conclusions .............................................................................. 26

Recommendations..................................................................... 26 

 
APPENDIX I - OBJECTIVES, SCOPE, AND METHODOLOGY........ 27 

 
APPENDIX II - SCHEDULE OF DOLLAR-RELATED FINDINGS .... 29 

 
APPENDIX III – PENNSYLVANIA COALITION AGAINST RAPE 

     RESPONSE TO THE DRAFT AUDIT REPORT........................ 30


APPENDIX IV - OFFICE ON VIOLENCE AGAINST WOMEN 

   RESPONSE TO THE DRAFT AUDIT REPORT........................ 40 

 
APPENDIX V - OFFICE OF THE INSPECTOR GENERAL
   ANALYSIS AND SUMMARY OF ACTIONS NECESSARY TO
   CLOSE THE REPORT ......................................................... 43 

 
 
                              INTRODUCTION

      The u.s. Department of Justice Office of the Inspector General (OIG),
Audit Division, has completed an audit of four Office on Violence Against
Women (OVW) Technical Assistance cooperative agreements awarded to the
Pennsylvania Coalition Against Rape (PCAR). The total award for the four
cooperative agreements was $4,725,000. The objective of the
2009-TA-AX-K024 cooperative agreement was to create the AEquitas: The
Prosecutor's Resource on Violence Against Women. The objective of the
2008-TA-AX-K021 cooperative agreement was to increase the capacity of
victim service professionals in the U.S. Territories to respond effectively and
comprehensively to sexual assault survivors. The objective of the
2009-TA-AX-K042 cooperative agreement was to develop an increased
understanding of sexual assault within the OVW Rural Grantee Program.
The objective of the 2009-TA-AX-K005 cooperative agreement was to
develop an increased understanding of the priority needs in the areas of
services, training, capacity building, and research to strengthen sexual
assault advocacy in the u.s.

      The purpose of our audit was to determine whether reimbursements
claimed for costs under the cooperative agreements were allowable,
supported, and in accordance with applicable laws, regulations, guidelines,
and the terms and conditions of the cooperative agreements. We also
evaluated peAR 's overall program performance and accomplishments in
meeting cooperative agreement objectives for the funded programs. Our
audit covered the period between the start of the initial cooperative
agreement award in April 2008 to the end of fieldwork in May 2011. As
shown in the table below, PCAR was awarded a total of $4,725,000 to
provide technical assistance on the core competencies needed to effectively
respond to sexual assault.

                Office on Violence Against Women 

                    Cooperative Agreements to 

               Pennsylvania Coalition Against Rape 



      Award             Award           Award
                                                      Award Amount
      Number           Start Date      End Date
 2009-TA-AX-K024        4/ 1/ 2009    3/31/2011           $3700000
 2008-TA-AX-K021        4 / 1/2008    9/30/2010              400000
 2009-TA-AX-K042        7/1/2009      6/30/2011              375 000
 2009-TA-AX-K005        5/ 1/2009     4 /3 0 /20 11          250000
     Total                                               $4,725,000
Source: OVW

                                     - 1 ­
                                        



Office on Violence Against Women

       The mission of the Office on Violence Against Women (OVW), a
component of the U.S. Department of Justice, is to provide national
leadership in developing the nation's capacity to reduce violence against
women through the implementation of the Violence Against Women Act
(VAWA). Created in 1995, OVW administers financial and technical
assistance to communities across the country that are developing programs,
policies, and practices aimed at ending domestic violence, dating violence,
sexual assault, and stalking. Currently, OVW administers 3 formula grant
programs and 18 discretionary grant programs. Since its inception, OVW
has awarded nearly $4 billion in grants and cooperative agreements, and has
launched a multifaceted approach to implementing VAWA. Through efforts
to forge state, local, and tribal partnerships among police, prosecutors,
victim advocates, health care providers, faith leaders, and others, OVW
award programs are intended to help provide victims with the protection and
services they need to pursue safe and healthy lives, while simultaneously
enabling communities to hold offenders accountable for their violence.

Pennsylvania Coalition Against Rape

      According to its website, the mission of PCAR is to work to eliminate all
forms of sexual violence and to advocate for the rights and needs of victims
of sexual assault, working at the state and national levels to prevent sexual
violence. To provide quality services to victims/survivors of sexual violence
and their significant others, PCAR works in concert with its statewide
network of 51 rape crisis centers serving all 67 counties in the
Commonwealth of Pennsylvania. The centers also work to create public
awareness and prevention education within their communities. In addition
to providing technical assistance in a variety of areas, the role of PCAR is to
oversee the rape crisis centers' contracts, monitor relevant legislation and
public policy issues, provide library resources and educational trainings, and
create public awareness campaigns. Funding for PCAR primarily comes from
grants and other government funds, and in fiscal year 2009, PCAR expended
a total of $6,222,579 in federal awards.

      In July 2000, PCAR founded the National Sexual Violence Resource
Center (NSVRC) as a national information and resource hub relating to all
aspects of sexual violence. The NSVRC coordinates a range of special
projects including the U.S. Territories (cooperative agreement 2008-TA-AX­
K021), Rural Project (cooperative agreement 2009-TA-AX-K042), and Sexual
Assault Advocacy Summit Planning (cooperative agreement 2009-TA-AX­
K005). These special projects seek to address building collaborative and



                                     - 2 -

                                                             


culturally specific approaches to preventing and responding to sexual
violence.

AEquitas

       AEquitas, a PCAR project funded by cooperative agreement
2009-TA-AX-K024, is intended to provide training, technical assistance and
other resources to the prosecutorial community with respect to domestic and
sexual violence against women from its office in Washington, D.C. AEquitas'
mission is to improve the quality of justice in sexual assault, domestic
violence, stalking, and dating violence cases by developing, evaluating, and
refining prosecution practices that increase victim safety and offender
accountability. According to its officials, AEquitas receives almost all of its
funding from OVW. AEquitas' staff is comprised of former prosecutors and a
forensic nurse examiner with expertise in sexual assault, domestic violence,
stalking, and dating violence. AEquitas also has an in-house communication
and operations manager with expertise in conference and event planning,
program and office administration, marketing, database management, and
Continued Legal Education reporting.

      During the course of our audit work, we learned that AEquitas
previously existed as the American Prosecutor’s Research Institute (APRI).
This program, dating to 2004 and funded by OVW grant
2004-WT-AX-K047 in the amount of $3,385,151, was operated by the
National District Attorney’s Association (NDAA). A prior OIG audit found that
NDAA’s management of DOJ grants did not meet important DOJ grant
reporting, expenditure tracking, and cost allocation requirements.2 The
audit found that the NDAA submitted financial status reports to OJP and
OVW detailing inaccurate expenditure activity, and the NDAA requested
excessive grant funds. Further, the NDAA did not follow standard accounting
practices and did not maintain adequate internal controls to ensure
compliance with grant requirements.

       We asked AEquitas officials about APRI and NDAA. We learned that
there were current AEquitas employees who worked previously at APRI, and
that some training course titles that APRI offered, including the National
Institute on the Prosecution of Domestic Violence and the National Institute
on the Prosecution of Sexual Violence, have evolved into the training courses
AEquitas offers today. AEquitas officials experienced with APRI told us they
were aware of the problems at NDAA, and made efforts to alert responsible
parties, including OVW. They also told us that it was APRI personnel who

                                                       
             2
         Audit Report GR-30-10-001, “Department of Justice Awards to the National District
Attorney’s Association”, April 2010.



                                                          - 3 -

                                               


initiated the idea to re-start the program under PCAR (an NDAA partner in
the APRI program) using the new name of AEquitas.3

Cooperative Agreements

       Cooperative agreements are awarded to states, units of local
government, or private organizations at the discretion of the awarding
agency. The distinguishing factor between a grant and a cooperative
agreement is the degree of federal participation or involvement during the
performance of the work activities. Cooperative agreements are utilized
when substantial involvement is anticipated between the awarding agency,
in this case OVW, and the recipient during performance of the contemplated
activity.

Our Audit Approach

       We tested compliance with what we considered to be the most
important conditions of the cooperative agreements. While PCAR received
other DOJ grant funds during this time period, we concentrated our audit
effort on the awards with a national scope. Unless otherwise stated in our
report, we applied the OJP Financial Guide as the primary criteria during our
audit. The OJP Financial Guide serves as a reference manual assisting award
recipients in their fiduciary responsibility to safeguard cooperative
agreement funds and ensure that funds are used appropriately and within
the terms and conditions of the awards. We tested PCAR’s:

      	 Internal control environment to determine whether the financial
         accounting system and related internal controls were adequate to
         safeguard cooperative agreement funds and ensure compliance with
         the terms and conditions of the cooperative agreements.

      	 Cooperative agreement expenditures to determine whether the
         costs charged to the cooperative agreements were allowable and
         supported.

            	 Accountable property to determine whether PCAR had procedures
                  for controlling accountable property, and whether the property was
                  included in its inventory and identified as purchased with federal
                  funds.
                                                       
       3
          In its response, PCAR stated that AEquitas was not a re-start of the APRI program.
However, because AEquitas officials told us during the audit fieldwork that AEquitas was a
re-start, and in consideration of the other evidence linking these organizations, we
determined it was appropriate to retain this information. See Appendix V for our analysis
and discussion of the PCAR response.



                                           - 4 -

                                      



     	 Drawdowns (requests for cooperative agreement funds) to
        determine whether PCAR’s requests for reimbursement or advances
        were adequately supported, and if PCAR managed cooperative
        agreement receipts in accordance with federal requirements.

     	 Reporting to determine whether the required Federal Financial
        Reports and progress reports were filed timely and accurately
        reflected award activity.

     	 Budget management and control to determine whether PCAR
        adhered to the OVW-approved budget for expenditures of
        cooperative agreement funds.

     	 Program Income to determine if program income was properly
        accounted for and applied to the award.

     	 Program performance and accomplishments to determine
        whether PCAR achieved cooperative agreement objectives and to
        assess performance and cooperative agreement accomplishments.

     	 Compliance with other requirements to determine whether PCAR
        complied with the terms and conditions specified in the individual
        cooperative agreement award documents.

    When applicable, we also test for compliance in the areas of matching
funds, and monitoring subrecipients and contractors. For these cooperative
agreements, we determined that PCAR had no matching funds required, and
had no subrecipients or contractors.




                                   - 5 -

                                       


                 FINDINGS AND RECOMMENDATIONS 


            COMPLIANCE WITH ESSENTIAL COOPERATIVE 

                   AGREEMENT REQUIREMENTS 


     From our audit, we determined PCAR did not fully comply 

     with all of the cooperative agreement requirements in the 

     areas we tested. We found that PCAR could not 

     adequately support consultant payments or justify the 

     rates that consultants were paid. PCAR also charged 

     unallowable lodging expenses and meal and beverage 

     costs to the awards. Program income was also generated 

     as a direct result of an award and was not properly 

     recognized. As a result of these deficiencies, we 

     questioned a total of $336,311 as of October 2010. These 

     conditions, including the underlying causes and potential 

     effects on the OVW program, are further discussed in the 

     body of this report. 


Internal Control Environment

       We developed an understanding of the financial and accounting
systems and related internal controls PCAR used to ensure it complied with
the terms and conditions of the cooperative agreements. We interviewed
PCAR officials and requested financial reporting and accounting system data
to determine if controls were adequate to separately account for and
maintain cooperative agreement funds. In reviewing PCAR’s internal
controls specific to the cooperative agreements, we also assessed whether
policies and procedures were in place to guide PCAR in safeguarding
cooperative agreement funds and administering the cooperative agreement
awards.

       We found that PCAR had written policies and procedures to assist in
the financial and accounting administration of the cooperative agreements.
However, we found that PCAR allowed individuals within the organization to
order, receive, and authorize for payment their own equipment and supplies,
which constitutes an internal control weakness. As a result of this
weakness, we tested 100-percent of the equipment purchased with
cooperative agreement funds. In our testing, we were able to verify all
equipment examined. While we did not identify any misuse of funds, to
minimize future risk to grant funds we believe PCAR should strengthen its
internal controls in this area to ensure appropriate separation of duties.




                                   - 6 -

                                        


       In addition to this internal control weakness, we identified instances
where PCAR was not in strict compliance with cooperative agreement terms
and conditions and we discuss these exceptions in greater detail in the body
of this report.

      We also reviewed PCAR’s most recent Single Audit Report, dated
June 30, 2009. No deficiencies, material weaknesses, or instances of
noncompliance were identified in the report.

Cooperative Agreement Expenditures

      PCAR’s cooperative agreement expenditures consisted of payments
for: personnel; fringe benefits; consultants; expenses for training and
conferences, including travel, lodging, and food, rent; telephone bills;
equipment; and supplies. We tested PCAR’s expenditures to determine if
they were allowable, reasonable, allocable, necessary to the project, and in
compliance with the funding requirements within the OJP Financial Guide.
We identified a total of $336,311 in expenditures that we consider
questioned costs, including $32,085 (lodging and food and beverages) we
consider unallowable, $298,980 (consultants) we consider unsupported, and
$5,246 (administrative assistant) we consider unreasonable.

Personnel and Fringe Benefits

      According to its accounting records, PCAR spent $1,225,299 on
employee salaries and $151,598 on fringe benefits. We selected two
nonconsecutive pay periods for detailed testing to determine if salaries and
fringe benefit charges were supported and allowable. For the sampled pay
periods, we found that the approved employee timesheets supported the
charges made to the cooperative agreements.

     We reviewed the OVW-approved fringe benefit cost pool elements to
determine whether the elements were reasonable and in accordance with the
approved cooperative agreement budgets. We reviewed the fringe benefits
charged to the cooperative agreements for the same two nonconsecutive
pay periods as the personnel costs and determined that the fringe benefit
expenditures associated with the personnel costs were reasonable and
properly charged to the cooperative agreements.

Direct Costs

      PCAR spent a total of $1,013,332 in direct costs, excluding personnel
and benefits. We tested $624,215 (or 62 percent) of these expenditures
reported in PCAR’s accounting system for allowability and supportability. To



                                    - 7 -

determine if the expenditures were allowable, we compared the
expenditures to the cooperative agreement budgets and permissible uses of
funds outlined in the OJP Financial Guide. To determine if the expenditures
were supported, we reviewed accounting system data and supporting
documents such as invoices, receipts, and contracts.

      Consultants and Partner Organizations

     The four cooperative agreements charged a total of $298,980 in
consultant costs to the cooperative agreements as shown below.

               Consultant Costs Paid by the PCAR
           Cooperative Agreements as of October 2010


                Award Number            Consultant Costs

                2009-TA-AX-K024              $ 26550
                2008-TA-AX-K021               228530
                2009-TA-AX-K042                11 900
                2009-TA-AX-K005                32000
                    Total                    $298,980
            Source. peAR

      In reviewing the supporting documentation provided by PCAR and
through interviews with peAR officials, we found peAR did not require
adequate documentation from consultants, did not adequately monitor
consultants, allowed consultants to bill based on a budgeted amount, and
allowed the consultants to charge the maximum amount of $450 per day
without proper support.

      According to the OJP Financial Guide, "time and effort reports are
required for consultants." According to peAR personnel, PCAR did not
require time and effort reports for consultants. Additionally, a peAR official
stated PCAR monitored consultants by attending summits and conferences
organized or led by the consultants and observing what the consultants had
produced or determining that the consultants were in fact in attendance.
However, we found no documentation of the observations or records of
consultants' time spent on award-related activities. This lack of monitoring
places federal grant award funds at risk and undermines the ability of PCAR
to adequately administer and manage the award, as well as ensure that
federal funds are being adequately safeguarded and spent accurately and
properly in accordance with the grant objectives.




                                     - 8 ­
                                        


      According to a PCAR official, PCAR began requiring time and effort
reports for all consultant activity in response to our finding.

       The 2008-TA-AX-K021 cooperative agreement charged professional
fees/consultants totaling $228,530 incurred by a PCAR partner organization
in the cooperative agreement. This organization, Sisters of Color Ending
Sexual Assault (SCESA), submitted quarterly invoices to PCAR listing
charges for a series of items without supporting documentation. A PCAR
official told us that she spoke with a person at the OJP Comptroller’s Office,
who advised PCAR that SCESA’s quarterly reports were sufficient
documentation for their expenditures. PCAR could not provide us with
SCESA time sheets to support salary/fringe benefit charges, original
receipts/invoices for supplies or travel, or invoices or time/effort reporting
for consultant charges.

      We also found that SCESA did not invoice PCAR for expenses as they
were incurred. Instead, they took their total budget of $228,530, divided by
eight which represented the eight quarters of the award period, and invoiced
the resulting $28,566 for each of the eight quarters. According to the OJP
Financial Guide, recipient organizations should request funds based upon
immediate disbursement/reimbursement requirements. Funds will not be
paid in a lump sum, but rather disbursed over time as project costs are
incurred or anticipated. In addition, the OJP Financial guide requires that
Federal Financial Reports (FFRs) are based on actual expenditures, and we
found that SCESA invoiced based on a budget amount rather than actual
amounts.

      When payments are not made based on actual expenditures, it places
federal grant award funds at risk and undermines the ability of OVW to
adequately administer and manage the award, as well as ensure that federal
funds are being adequately safeguarded and spent accurately and properly
in accordance with the grant objectives.

      In addition to the consultant costs not being supported, we found that
PCAR did not follow OJP Financial Guide requirements in the compensation of
the consultants it hired with cooperative agreement funds. According to the
OJP Financial Guide, compensation for individual consultant services is to be
reasonable and consistent with that paid for similar services in the
marketplace.  Compensation in excess of $450 per day requires written prior
approval. The Financial Guide goes on to state that that this does not mean
that the rate can or should be $450 for all consultants. Rates should be
developed and reviewed on a case-by-case basis and must be reasonable
and allowable in accordance with OMB cost principles.  PCAR officials told us
they did not obtain quotes or bids for consultant services. Instead, we found



                                     - 9 -

                                        


that PCAR treated the $450 maximum for consultant services established by
the OJP Financial Guide as its standard rate and paid all of its consultants at
this rate, and pre-printed its standard consultant contracts with the $450
rate.

       When we asked about consultant compensation, PCAR officials told us
that they treated $450 as a standard consultant rate because the
consultants hired are generally professionals for whom $450 per day
constitutes a pay cut. However, we looked at open source salary
information for two consultants hired by PCAR – a city government employee
and a tribal government employee – we found evidence that these two
consultants’ regular salaries were less than $450 per day (or an annualized
$117,000 per year). In addition, the OJP Financial Guide expects that state
and local government employees hired as consultants may only be
compensated when the unit of government will not provide these services
without cost. If a state or local government employee is providing services
under a federal grant and is representing its agency without pay from its
respective unit of government, the rate of compensation is not to exceed the
daily salary rate for the employee paid by the unit of government. When we
asked PCAR whether they held discussions with the units of government for
these two employees about provision of services without cost, they told us
they left it to the consultant to communicate with his or her agency.

       As we found that PCAR could not provide documentation supporting
the efforts of the consultants it hired, did not require partner agencies to
provide documentation covering consultant costs, and also did not appear to
take reasonable actions to determine consultant salaries, we question all of
the costs associated with consultants for the four awards totaling $298,980.
Additionally, we recommend that OVW require PCAR to implement processes
that ensure that consultants are adequately monitored, through the
collection of activity reports, and that salaries for consultants are reviewed
and approved in line with the OJP Financial Guide.

      Administrative Support

      Through March 2011, the AEquitas project shared space with the
National Council of Juvenile and Family Court Judges (NCJFCJ). PCAR
charged the 2009-TA-AX-K024 cooperative agreement $8,821 for the use of
NCJFCJ’s administrative assistant to perform various administrative duties
from April to July of 2010. We found PCAR charged for 178.75 hours of
administrative work at a rate of $49.35 per hour, or an annualized salary of
$102,648. When we asked PCAR officials about this, they told us that they
called around to temporary personnel agencies at the time, and were quoted
rates of approximately $40 per hour. However, they did not provide



                                    - 10 ­
                                        


documentation of these inquiries. PCAR agreed to utilize the NCJFCJ
administrative assistant due to her proximity and a large backlog of work to
be done. In our judgment, $49.35 per hour was not a reasonable rate to
pay for administrative services. We learned that subsequently, PCAR
obtained similar administrative assistant services at a rate of $20 per hour.
This rate would have amounted to $3,575 for the 178.75 administrative
assistant hours worked from April to July 2010, or $5,246 less than the
$8,821 actually paid to NCJFCJ. As a result, we question $5,246 as
unreasonable costs.

      Meeting Expenses

       As part of the four technical agreements we reviewed, PCAR conducted
a considerable amount of training and conferences to accomplish the award-
funded program objectives. To conduct these events PCAR expended funds
for staff and consultants (discussed earlier) and meeting expenses including
travel, lodging, and food. To determine the allowable food and beverage
rates for each conference, we relied on the guidance outlined in the OJP
Financial Guide. We calculated meal rates based on the General Services
Administration’s (GSA) Travel Regulations covering Meals and Incidental
Expense (M&IE) rates in effect at the time and location of each conference.

      Because OJP recognizes that the cost of meals consumed during
conferences may exceed the normal GSA allowable meal costs, the Financial
Guide permits meals consumed during a conference to exceed normal rates
by up to 50 percent per meal when all hotel service charges are included.
The Financial Guide also provides an allowance for light refreshments of up
to 23 percent above the normal GSA daily meal charges. We calculated a
value for each conference-provided meal that included the normal meal rate
plus an additional 50 percent. We also included an additional 23 percent
above the normal daily meal rate for light refreshments. We determined
that PCAR charged lodging expenses that exceeded the allowable rate. In
addition, PCAR also charged meals and beverage expenses that we
considered unallowable, as detailed below.

      2009-TA-AX-K024

       One of PCAR’s primary objectives for the 2009-TA-AX-K024
cooperative agreement was to conduct training for prosecutors in the areas
of domestic and sexual violence against women. We reviewed records for
the seven training events PCAR had conducted at the time of our audit. Two
of the trainings were conducted in the Washington, D.C. area, and the other
five were conducted at various locations throughout the country. These five
trainings are summarized in the following table.



                                    - 11 ­
                              Remote Training Events

      Event                  Lodging                Expenses                   Total
Miami FL                         $12 218                $16681                    $28 899
Dallas TX                        $10 580                $15 602                   $26 182
San Francisco CA                 $17353                 $20043                    $37396
Chicago, IL                      $13,273                $15,121                   $28,394
St. Paul MN                      $15 700                     $0                   $15 700
Source. peAR


       PCAR contracted with a hotel to provide meeting and lodging space for
most of the meetings. The hotel provided the meeting space for the event
at no charge based on expected hotel room and meal charges associated
with the event. For the St. Paul event, a local university provided
complimentary meeting space. Our analysis of the expenditures for these
training sessions identified the following issues.

       1) Lodging

      PCAR incurred lodging costs of $12,218 for its November/December
2009 training event in Miami, Florida, at a rate of $149 per night, per guest.
The applicable federal lodging rate at that time and locale was $128 per
night. According to the OJP Financial Guide, "for events of 30 or more
participants that are funded with an OJP award, if lodging costs exceed the
Federal per diem rate, none of the lodging costs are allowable. (When
Federal grant funds are expended for grant conferences for more than 30 

attendees and zero hotel rooms are being billed to Federal grants, the 

award recipients must still ensure that lodging rates are within Federal per 

diem rates)". This event involved 66 participants - 52 students, 9 staff, 

and 5 consultant instructors. The lodging expenses of all 9 staff and 5
instructors, as well as 5 scholarship students (19 total) were billed to the
award 4 When we asked PCAR officials about this expense, they told us that
the lodging rate was negotiated in July 2009 while the Fiscal Year 2009
Miami lodging rate of $149 was still in effect. 5 However, because peAR's
negotiated rate exceeded the prevailing federal lodging rate at the time of
the event, in accordance with the OJP financial guide we question all the
$12,218 lodging expense as unallowable.



      4 peAR awards "scholarsh ips" from cooperative agreement funds that pay travel,
room and board expenses to a limited number of students.
       5  Our rev iew of the GSA per diem rates showed that the actual rate in effect in July
2009 for Miami was $121 when the contract was be ing negotiated.



                                           - 12 ­
                                        


      2) Meals

         a) Breakfast

      Prior to each day of training, PCAR provided attendees and staff with a
buffet/continental breakfast meal. According to the OJP Financial Guide,
“the cost of any meal provided, plus any hotel service costs, cannot exceed
150 percent of the locality Meals & Incidental Expenses (M&IE) rate per meal
per attendee.” We calculated the cost charged for breakfast meals at each
of the four events and found that in each instance, the amount charged to
the award exceeded the maximum allowed. For example, PCAR charged
over $32 per person for breakfast (or 295 percent of the $11 M&IE for
breakfast in Miami).

      In addition, we found that staff and consultants frequently claimed the
breakfast per diem, also charged to the award, in addition to the breakfast
provided to them. According to the OJP Financial Guide, anyone covered by
per diem allowances or reimbursements who attends any events at which
food and beverages are provided must deduct the allowance for such meals
provided from his/her per diem allowance.

         b) Lunch

       On the second day of each training event, PCAR charged the award for
a staff luncheon. Officials explained that this luncheon was necessary in
order to gather and discuss the participant attitudes toward the training in a
short amount of time. Again, the OJP Financial Guide states that the cost of
any meal provided, plus any hotel service costs, cannot exceed 150 percent
of the locality M&IE rate per meal per attendee.

      We calculated the cost charged for the luncheons at each of the four
events and found that in each instance, the amount charged to the award as
a percent of M&IE exceeded the maximum allowed. For example, PCAR
charged over $48 per person for a lunch (or 269 percent of the $18 M&IE for
lunch in San Francisco).

         c) Refreshments

      In the afternoon of each day of training, PCAR provided staff and
students with break refreshments. In addition, refreshments such as bagels
(Miami) and coffee (Dallas and San Francisco) were provided. The OJP
Financial Guide states that the cost of refreshment items, plus any hotel
service costs, cannot exceed 23 percent of the locality M&IE rate per
attendee per day.



                                    - 13 ­
      We calculated the cost charged for refreshments at each of the four
events and found that in all but one instance, the amount charged to the
award as a percent of M&IE exceeded the maximum percent allowed from
the OJP Financial Guide, (note that the Miami and San Francisco events
offered the choice of two different types of afternoon break each day, the
Dallas event offered varying amounts of coffee each day and the San
Francisco event provided a higher-cost break for instruction staff on the day
prior to training). For example, peAR charged over $26 per person for one
day of break foods (or 37 percent of the $71 M&IE for San Francisco).

     We calculated the total food and beverage charges for the four training
events, including tax and service charges, and the maximum allowable food
and beverage charges for daily breakfasts and refreshments, as well as a
"day two" staff luncheon, based on OJP Financial Guide food and beverage
guidance.

                    Total Questioned Food & Beverage 

                       Costs for 2009-TA-AX-K024 


                                             Maximum
                     Total Food &
                                             Allowable     Questioned
       Event          Beverage
                                              Food &         Costs
                       Charges
                                             Beverage
   Miami                     $13 433               $8912         $4521
   Dallas                     11 238                9489          1749
   Chicaqo                    12518                 8672          3846
   San Francisco              15804                 9489          6315
   Grand Total:             $52,993              $36,562       $16,431
            Source. DIG/ peAR

     2009-TA-AX-K042

     We determined PCAR provided $3,436 in unallowable meal and
beverage expenses to the 2009-TA-AX-K042 cooperative agreement.

      1) Lunch

     peAR charged an unallowable amount for lunch at a conference in
Denver. According to the OJP Financial Guide, "the cost of any meal
provided, plus any hotel service costs, cannot exceed 150 percent of the
locality M&IE rate per meal per attendee." PCAR charged almost $61 per
person (10 people) for lunch (or 361 percent of the $16 lunch per diem).




                                    - 14 ­
                                                              


Therefore, we are questioning $367 of a lunch provided that was over the
amount allowed.

             2) Refreshments

      PCAR charged an unallowable amount for refreshments. According to
the OJP Financial Guide, “refreshments include light food and drink served
during break time, such as coffee, tea, milk, juice, soft drinks, donuts,
bagels, fruit, pretzels, cookies, chips, or muffins. The cost of these items,
plus any hotel service costs, cannot exceed 23 percent of the locality M&IE
rate per attendee per day.” In two instances, PCAR charged $30 and $35
per person for refreshments, totaling $3,069 or over the 23 percent of M&IE
allowed.

     In total, we question $19,867 as unallowable meal and incidental
expenses charged to the cooperative agreements due to excessive charges
made for the various meals and snacks discussed above.

Accountable Property

      The OJP Financial Guide states that grantees are required to be
prudent in the acquisition and management of property acquired with federal
funds. The guide also states that grantees must establish an effective
system for property management.

      As a result of the internal control weakness discussed earlier in the
report, we tested 100 percent of the equipment purchased with cooperative
agreement funds with the exception of computers in the possession of
employees located out of state.6 We reviewed the equipment and found that
the equipment was properly marked as purchased with federal funds, used
as shown in the cooperative agreement, physically present and verifiable,
and included on a PCAR inventory list.

Drawdowns

      The OJP Financial Guide establishes the methods by which the DOJ
makes payments to awardees. The methods and procedures for payment
are designed to minimize the time elapsed between the transfer of funds by
the government and the disbursement of funds by the awardee. Awardees
should request grant funding based on an immediate reimbursement basis.
If grant funding is requested as an advance, the grantee must ensure that

                                                       
             6
          A PCAR official stated purchases over $500 are considered equipment. PCAR
policy states that all fixed assets will be recorded and listed on an inventory-listing sheet.



                                                          - 15 ­
cash on hand is kept to a minimum and disbursed immediately or within
10 days.

      We determined that between April 2008 and October 2010, peAR
requested and received cooperative agreement funding totaling $2,059,030.
The following table shows the amount of funding related to each award.

                    Requests for Cooperative Agreement
                       Funding as of October 2010

                                      Funding          Number of
       Cooperative Agreement
                                      Request           Funding
              Award
                                      Amount           Requests
      2009-TA-AX-K024                   $1,601,225           16
      2008-TA-AX-K021                       286,939          27
      2009-TA-AX-K042                       134,669          12
      2009-TA-AX-K005                        37,097          15
            Total                       $2,059,030           70
            Source: OJP

      peAR drew down funds on a monthly basis based on the actual
amounts spent on cooperative agreement-related activities. Based on our
analysis, we determined that peAR adhered to the OJP Financial Guide's
minimum cash on hand requirement and properly requested funds on a
reimbursement basis.

Reporting

      We found that PCAR submitted the required financial reports on time,
and these reports were adequately supported by accounting records. In
addition, PCAR submitted the required progress reports generally on time
and in accordance with OVW requirements.




                                   - 16 ­
                                                              


Federal Financial Reports

      The financial aspects of OVW awards are monitored through Federal
Financial Reports (FFRs).7 According to the OJP Financial Guide, FFRs should
be submitted within 30 days of the end of the most recent quarterly
reporting period. The final report must be submitted no later than 90 days
following the end of the award period. Funds or future awards may be
withheld if reports are not submitted or are excessively late.

       Between April 2008 and October 2010, PCAR was required to submit a
total of 26 FFRs for the four cooperative agreements. We reviewed the
submitted reports for accuracy and timeliness and found that all 26 FFRs
were submitted on time.

      According to the OJP Financial Guide, the FFRs are supposed to contain
the actual expenditures for the reporting period and cumulative for the
award. We compared the FFRs to the accounting records (PCAR expenses)
and we were able to tie the FFR amounts to the accounting records, with the
exception of the omission of program income discussed in the Program
Income section of this report.

Progress Reports

       OVW requires awardees to complete and submit progress reports as a
means to monitor the performance of award-funded programs. Progress
reports are submitted to describe activities and accomplishments toward the
objectives contained in the approved award application. According to the
OJP Financial Guide, progress reports are to be submitted within 30 days
after the end of the reporting periods, which are June 30 and December 31.

      Between April 2008 and May 2011, PCAR submitted the 17 required
progress reports for the four cooperative agreements. We selected the
December 2010 progress reports from each cooperative agreement in order
to compare the data in the reports to support documentation provided by
PCAR. We found that PCAR was able to provide adequate documentation to
support the events and trainings that were discussed in the progress
reports. The documentation was typically in the form of agendas and
reports.

                                                       
             7
          Effective for the quarter beginning October 1, 2009, grant recipients must report
expenditures online using the Federal Financial Report (FFR-425). Prior to October 1, 2009,
the financial reports were called Financial Status Reports (FSRs) and had to be submitted
within 45 days of the end of the most recent quarterly reporting period. For this report we
will be referring to both the FSRs and FFRs as FFRs.



                                                          - 17 ­
          Between April 2008 and May 2011, peAR submitted 17 progress
    reports. We found that the 17 progress reports were generally submitted on
    time. One report was 7 days late, one was 14 days late, and another was
    30 days late. While these reports did not meet the timeliness requirements,
    we did not consider the amount of time to be significant.

    Budget Management and Control

          OVW approved a detailed budget for each of the four cooperative
    agreements. The OJP Financial Guide requires that recipients spend award
    funding according to defined budget categories, or request approval prior to
    reprogramming funds if actual spending exceeds certain limits. 8 The
    following table presents the approved budget for the cooperative
    agreements.

               OVW Approved Cooperative Agreement Budgets to PCAR

    ovw
  Budget       2009-TA-AX-K024     2008-TA-AX-K021      2009-TA-AX-K042       2009-TA-AX-KOO5
 Cateqorv
Personnel          $ 1,866,294             $ 55,439            $ 118,2 17              $    19,983
Fringe
Be nefits               485,234               14,574               30,795                    5,425
Tra vel                 247,726               25,510               30,489                    6 , 395
Eauipment                40 ,399                   0                 3,250                        0
Supplies                 48665                3720                  5839                       960
Contractua l            469 ,762            266,829               127,335                  205,921
Other                   541,920               33,928               59,075                   11, 316
Total               $3,700,000            $400000               $375,000               $250,000
    Source: OVW

          We compared budgeted amounts from the approved financial
    clearance memorandums to actual expenditures from the cooperative
    agreement transactions. At the time of our audit, one cooperative
    agreement was complete and three were ongoing. We determined that
    peAR spent cooperative agreement funds according to the defined budget
    categories.




           8 Movement of budget dollars between approved budget categories without an OVW
    approved Grant Adjustment Notice is allowable up to 10 percent of the tota l award amount
    (10 percent rule), provided there is no change in project scope.


                                             - 18 ­
                                        


Program Income

      According to the OJP Financial Guide, all income generated as a direct
result of an agency-funded project shall be deemed program income. This
income may be used to further the program objectives or refunded to the
Federal Government. Additionally, program income may only be used for
allowable program costs and must be expended prior to additional OJP
drawdowns, program income must be used for the purposes of and under
the conditions applicable to the award, and unless specified by the awarding
agency, program income must be used as earned and expended as soon as
possible.

       PCAR did not contemplate the generation of program income in its
award application, nor did it report any program income on its quarterly
FFRs (see Reporting section above). PCAR officials intended to fund the
2009-TA-AX-K024 cooperative agreement project entirely with OVW award
funds. However, the PCAR general ledger for the 2009-TA-AX-K024
cooperative agreement we reviewed as part of our fieldwork showed a credit
balance of $62,512 as of October 31, 2010. We identified transactions in
the general ledger that appeared to represent program income earned as a
result of award-funded activities, specifically fees earned for providing
training or expert witness services.

       The total amount of these entries was $64,970. We discussed these
transactions with PCAR officials, who told us that their OVW award was
explicitly to provide services to OVW grantees only. However, the
organizations associated with the actions noted in the entries were
interested in PCAR’s expertise, but did not fall into this category. We found
that PCAR provided the organizations with services but did not charge any
salary, travel, or other expense directly incurred by these trainings to award
funds. The budgeted amount for salaries of employees involved in these
trainings was reduced through Grant Adjustment Notices from 100 percent
to between 95 and 98 percent. PCAR officials also told us that they were
working toward changing the 2009-TA-AX-K024 cooperative agreement
AEquitas project into a standalone 501(c)(3) entity, and toward that end it
was necessary for AEquitas to establish funding sources beyond OVW grant
awards.

     We asked PCAR officials to list their revenue-generating activities.
PCAR provided the following:

   	 Military Institute on the Prosecution of Sexual Violence (MIPSV),
      February 23-26, 2010 –Training event in Alexandria, VA. The
      attendees consisted of military prosecutors from the U.S. Army. This



                                    - 19 ­
                                      


     event was requested and funded by the U.S. Army Trial Counsel
     Assistance program.

  	 MIPSV, August 24-27, 2010 - Training event at Andrews Air Force
     Base, MD. The attendees consisted of military prosecutors from the
     U.S. Army and Air Force. This event was requested by the U.S. Army
     Trial Counsel Assistance program and it was funded through a contract
     agreement with the U.S. Air Force.

  	 Prosecuting Alcohol Facilitated Sexual Assault (PAFSA), August 30 –
     September 3, 2010 –Training event in Newport, RI. The attendees
     consisted of military prosecutors from the U.S. Navy. This event was
     requested and funded by the U.S. Navy.

  	 Medical Consequences of Sexual Assault, October 18-21, 2011 –
     Training event in Monrovia, Liberia. The attendees consisted of
     prosecutors, judges, magistrates and public defenders from across the
     country. This event was requested and funded by the Norwegian
     Refugee Council.

  	 Victims’ Rights and the Collection of Evidence, January 19-20, 2011 –
     Training even in Dubai, United Arab Emirates. The attendees
     consisted of prosecutors from U.A.E. Ministry of Justice. The request
     was made by U.A.E. Ministry of Justice to the American Bar Association
     Rule of Law who in turn requested PCAR’s presence and paid for
     AEquitas participation.

  	 MIPSV, February 28 – March 4, 2011 - Training event in Alexandria,
     VA. The attendees consisted of military prosecutors from the U.S.
     Army and Air Force. This event was requested by the U.S. Army Trial
     Counsel Assistance program and it was funded through a contract
     agreement with the U.S. Army.

  	 International Institute on the Prosecution of Human Trafficking
     (IIPHT), March 14-18, 2011 –Training event in Yaoundé, Cameroon.
     The attendees consisted of prosecutors, judges, law enforcement
     officers, commissioners, and social workers representing the ten (10)
     regions in Cameroon. The event was funded by a U.S. Department of
     State grant award.

       We noted that some of these events do not appear to be among those
we found in the general ledger, and as a result we believe there is most
likely additional revenue earned beyond the $64,970 we identified.




                                  - 20 ­
                                        


       In our judgment, while the immediate expenses such as travel and
staff time incurred providing these revenue-generating trainings may be
funded independent of award funds, the project staff used OVW-funded
computers to provide the training, which is also supported by OVW-funded
office space, services, and supplies. In addition, in some instances the
curricula provided in these trainings were developed with the support of
OVW funds. As a result, we concluded that the revenues earned constituted
program income. According to the OJP Financial Guide, program income
earned must be reported on the quarterly FFR. We found that PCAR did not
report any program income in its financial reporting.  The OJP Guide also
requires that program income is to be spent as soon as possible, prior to
additional draw downs, for approved program-related purposes. PCAR
officials told us that the revenue received from these trainings was used to
pay for staff time, travel, and other items associated with these non-award
related trainings. However, we found that while the revenue balances
earned from these trainings remained in the general ledger for accounting
purposes, the associated expenses were commingled in the general accounts
receivable ledger. As a result, we were unable to verify that the funds
earned were expended in accordance with OJP guidelines.

      Based on our review of the income generated through the OVW award-
funded program, we believe the $64,970 we identified may be enhanced
revenue. However, it is unclear how much should be considered as such
since PCAR did not track how much should be attributed to the OVW
program. As a result, we recommend that PCAR establish a mechanism by
which to track program income generated as a result of grant funds, and
ensure that program income is applied in accordance with grant rules.

Program Performance and Accomplishments

       Overall, the goals of the PCAR cooperative agreements were to provide
technical assistance on the core competencies needed to effectively respond
to sexual assault. The goal of the 2009-TA-AX-K024 cooperative agreement
was to provide accessible, up-to-date technical assistance, substantive legal
information, trial strategies, as well as support and training for violence
against women prosecutors. The goal of the 2008-TA-AX-K021 cooperative
agreement was to increase the capacity of victim service professionals in the
U.S. Territories to respond effectively and comprehensively to sexual assault
survivors. The goal of the 2009-TA-AX-K042 cooperative agreement was to
prioritize technical assistance on the core competencies needed to effectively
respond to sexual assault in rural communities. With support from OVW, the
project aimed to develop an increased understanding of sexual assault within
the OVW Rural Grantee Program. The goal of the 2009-TA-AX-K005




                                    - 21 ­
                                         


cooperative agreement was to prioritize technical assistance on the core
competencies needed to effectively respond to sexual assault.

       The objectives for the AEquitas 2009-TA-AX-K024 cooperative
agreement was to provide accessible, up-to-date technical assistance,
substantive legal information, trial strategies, as well as support and training
for violence against women prosecutors. Specifically, the project was
expected to:

   	 Provide training and technical assistance to OVW grantees.

   	 Provide four to six basic trainings through the National Institute on the
      Prosecution of Domestic Violence and the National Institute on the
      Prosecution of Sexual Violence.

   	 Provide two to four advanced trainings through the National Institute
      on the Prosecution of Domestic Violence and the National Institute on
      the Prosecution of Sexual Violence.

   	 Develop web-based seminars on emerging issues for violence against
      women prosecutors.

   	 Host a Public Law 280 National Training for OVW grantees.

   	 Host a Domestic Violence Homicide Training for prosecutors.

   	 Create a newsletter and publish 12-14 articles and 2-4 monographs for
      dissemination to OVW grantees.

   	 Create an accessible comprehensive website for violence against
      women prosecutors incorporating interactive methods for web-based
      learning and communication (such as podcasts, wiki, and webcasts).

   	 Create an archive of relevant sample motions, briefs, and testimony
      that can be accessed easily.

   	 Develop resources and strategies to allow prosecutors to implement
      and apply concepts in handling violence against women cases.

   	 Utilize video-conferencing and emerging web technology to make
      information more accessible for prosecutors. 

     The objectives for the U.S. Territories 2008-TA-AX-K021 cooperative
agreement:



                                     - 22 ­
                                       



  	 Enhance the capacity of OVW grantees to assess effectiveness of
     services to victims of sexual violence through onsite consultation and
     collaborative assessment tool development.

  	 Increase OVW grantees knowledge regarding sexual assault and
     comprehensive coordinated response through customized information
     and resource dissemination.

  	 Enhance strategic planning efforts of grantees to build comprehensive,
     multidisciplinary response to sexual assault through technical
     assistance and information sharing.

     The objectives for the Rural 2009-TA-AX-K042 cooperative agreement:

  	 Provide customized technical assistance over the telephone and email
     specific to sexual assault to OVW Rural Grantees.

  	 Conduct up to six on-site technical assistance visits to OVW Rural
     Grantees by the end of this 24 month grant period to build capacity to
     address sexual assault.

  	 Conduct one National Training Institute for OVW Rural Grantees 

     specific to sexual assault by December, 2009. 


  	 Conduct two webinars for rural grantees associated with emerging
     technical assistance topics by the end of the project.

  	 Develop a series of Public Service Announcements for use and 

     adaptation by Rural Communities by the end of project. 


  	 Develop a collection of audio pod casts highlighting innovative works of
     rural grantees.

     The objectives for the Summit 2009-TA-AX-K005 cooperative
agreement:

  	 Identify up to 100 diverse key informants within the first 6 months of
     the project.

  	 Conduct 10 focus groups in different locations around the U.S. within
     the first 15 months of the project.




                                   - 23 ­
                                          


   	 Provide 10 technical assistance information exchange events in
      different locations around the U.S. within the first 15 months of the
      project.

   	 Identify priority recommendations and action steps related to sexual
      assault advocacy by the end of 24 months to inform community-
      based, state, national, and federal partners in strategic planning.

      To assess PCAR’s achievements in meeting the goals and objectives for
the cooperative agreements, we interviewed officials and requested any data
that they compiled, maintained, and used in order to measure and evaluate
performance and accomplishments related to each objective.

       Based on the information we reviewed, it appears that PCAR has
achieved or is on track to achieve the goals and objectives of the
cooperative agreements. We reviewed auditee records, agendas, reports,
and other documentation. We found PCAR provided, or plans to provide, the
trainings, technical assistance, associated support, and reports that will fulfill
the award objectives. However, we observed that the award objectives
established by OVW were all quantitative in nature. The objectives required
the provision of a certain number of trainings, newsletters, and other items
with no qualitative measurement of accomplishments. We believe there
would be benefit in establishing qualitative measures for the grantee rather
than basing grant performance on the number of trainings provided. For
example, a more effective measure of program performance would be to
identify what skills and knowledge are to be developed in a training class
and whether or not this objective was met.

Compliance with Other Cooperative Agreement Requirements

      In addition to the general cooperative agreement requirements, we
tested for compliance with terms and conditions specified in the cooperative
agreement award documents. The four awards contained 71 special
conditions. We found that PCAR complied with most of the special conditions
we tested, except for the findings previously reported and those discussed
below.

      Specifically, we found that one of the special conditions associated
with the 2008-TA-AX-K021 cooperative agreement required PCAR to
“synthesize evaluation data and present (a) final report to OVW”. However,
we found that OVW did not receive the 2008-TA-AX-K021 final report until
May 2011, 6 months after the end of the award period.




                                      - 24 ­
                                         


       In addition, another special condition associated with 2009-TA-AX­
K024 cooperative agreement required PCAR to submit an activity report
within 45 days after the end of any conference, meeting, retreat, seminar,
symposium, training activity, or similar event funded under the award when
the total cost of the event exceeds $20,000 in award funds. We found that
PCAR submitted these reports as required, but generally failed to adhere to
the 45 day deadline, however, the lateness of the reports was not
significant.

Other Reportable Matters

       PCAR charged $29,888 in other costs to the cooperative agreements.
These costs were categorized as direct costs in their accounting records and
shown in the budget requests as other costs. These expenses included
supplies, including computer supplies, maintenance of equipment,
equipment leases, software, rent, custodial services, building maintenance,
printing, telephone and internet fees, shipping, membership dues, and
insurance. These costs were allocated to these awards based on a
percentage basis by PCAR, as would normally be done for indirect costs.
According to the OJP Financial Guide, "if a recipient does not have an
approved Federal indirect cost rate, funds budgeted for indirect costs will not
be recoverable until a rate is approved." We found no evidence that PCAR
had an approved rate, nor have we found any evidence that they requested
approval of an indirect cost rate.

      OVW approved some of these costs in the cooperative agreements
budgets. For example, in the 2008-TA-AX-K021 cooperative agreement
approved budget, OVW approved telephone, rent, and maintenance costs to
be charged to the cooperative agreement. The budget narrative did not
state that these costs were to be allocated, or in fact treated as indirect
costs. A PCAR official stated they charged these costs because OVW
approved these types of costs in the cooperative agreement budgets under
the other cost category.

      While we do not question these costs as they have been approved by
OVW in the awards, we consider these costs to be indirect costs charged to
the awards. As a result, we believe OVW should not approve these costs as
direct or other costs, but ensure that the costs are treated as indirect costs,
and require PCAR to obtain the necessary approvals to charge such indirect
costs to the awards.




                                     - 25 ­
                                       


Conclusions

      PCAR did not fully comply with all of the cooperative agreement
requirements we tested. We found weaknesses in PCAR’s internal controls,
monitoring of consultants, charging for food and beverages, and in its
reporting of program income. Specifically, we found unsupported costs in
the amount of $298,980 charged to the cooperative agreements for
consultant expenses. We also found PCAR charged a flat rate of $450 per
day for consultants without taking steps to ensure that these rates were
reasonable. In addition, PCAR charged $12,218 in unallowable lodging
expenses and $25,113 in unreasonable expenses to the cooperative
agreements. PCAR also received $64,970 in program income which resulted
from award-funded activities. Lastly, PCAR charged indirect costs of
$29,888 to the cooperative agreements as other direct costs with the
approval of OVW.

Recommendations

    We recommend that OVW:

    1. Ensure PCAR strengthens internal controls when ordering, receiving
       and paying for equipment and supplies.

    2. Remedy $298,980 in unsupportable consultant costs.

    3. Ensure PCAR adequately monitors its consultants.

    4. Ensure consultants bill based on actual cooperative agreement
       expenditures.

    5. Ensure PCAR develops and reviews consultant rates on a case-by­
       case basis and ensures the rates are reasonable and allowable in
       accordance with OMB cost principles.

    6. Remedy $32,085 in unallowable expenses.

    7. Remedy $5,246 in unreasonable expenses.

    8. Ensure that PCAR properly accounts for, reports, and applies
       program income generated from cooperative agreement funded
       activities including the $64,970 identified in this report.

    9. Ensure PCAR does not charge any indirect costs as direct costs and,
       if necessary,obtain an indirect cost rate to cover the indirect costs.



                                   - 26 ­
                                                                 APPENDIX I 

 
               OBJECTIVES, SCOPE, AND METHODOLOGY

      The purpose of our audit was to determine whether reimbursements
claimed for costs under the cooperative agreements were allowable,
supported, and in accordance with applicable laws, regulations, guidelines,
and the terms and conditions of the cooperative agreements. We also
assessed grantee program performance in meeting the cooperative
agreements’ objectives and overall accomplishments. The objective of our
audit was to review activities in the following areas: (1) internal control
environment, (2) cooperative agreement expenditures, (3) accountable
property, (4) drawdowns, (5) federal financial and progress reports ,
(6) budget management and control, (7) program income, (8) program
performance and accomplishments, and (9) compliance with other
cooperative agreement requirements. We determined that monitoring of
contractors and subrecipients and matching costs were not applicable to
these cooperative agreements.

      We conducted this performance audit in accordance with Generally
Accepted Government Auditing Standards. Those standards require that we
plan and perform the audit to obtain sufficient, appropriate evidence to
provide a reasonable basis for our findings and conclusions based on our
audit objectives. We believe that the evidence obtained provided a
reasonable basis for our findings and conclusions based on our audit
objectives.

      In conducting our audit, we used sample testing while testing
cooperative agreement expenditures. In this effort, we employed a
judgmental sampling design to obtain broad exposure to numerous facets of
the cooperative agreements reviewed, such as high dollar amounts or
expenditure category based on the approved cooperative agreement
budgets. This non-statistical sample design does not allow for the projection
of the test results to the universes from which the samples were selected.

       We audited the OJP cooperative agreement numbers
2009-TA-AX-K024, 2008-TA-AX-K021, 2009-TA-AX-K042, and
2009-TA-AX-K005. These agreements were selected since they represented
funding that PCAR received for national programs. Our audit concentrated
on, but was not limited to, the award of the 2008 cooperative agreement in
April 2008, through the end of field work in May 2011.

      We tested compliance with what we consider to be the most important
conditions of the cooperative agreements. Unless otherwise stated in our
report, the criteria we audit against are contained in the OJP Financial Guide
and cooperative agreement award documents.

                                     27

      In addition, we reviewed the timeliness and accuracy of Federal
Financial Reports and progress reports, evaluated actual program
performance and accomplishments to cooperative agreement goals and
objectives, and considered internal control issues. However, we did not test
the reliability of the financial management system as a whole.
                                         




                                     28 

                                                                        APPENDIX II



                SCHEDULE OF DOLLAR-RELATED FINDINGS


QUESTIONED COSTS:                                        AMOUNT                PAGE        


Unsupported Expenditures                                   $   298,980             10 


Unallowable Expenditures                                        32,085           12,14 


Unreasonable Expenditures                                         5,246            11 


TOTAL OF QUESTIONED COSTS:                                  $ 336,311


Enhanced Income                                                 64,970             21 


TOTAL DOLLAR-RELATED FINDINGS:                              $ 401,281


Questioned Costs are expenditures that do not comply with legal, regulatory, or
contractual requirements, or are not supported by adequate documentation at the time of
the audit, or are unnecessary or unreasonable. Questioned costs may be remedied by
offset, waiver, recovery of funds, or the provision of supporting documentation.

 




                                           29 

                                                                                            APPENDIX III 

 
             PENNSYLVANIA COALITION AGAINST RAPE 

              RESPONSE TO THE DRAFT AUDIT REPORT 




                                                                                         125 North Enola Drive
                                                                                         Enola. PA 170,5

                                                                                          roll Free' 800-69, -7445
                                                                                          7 17-728·9740
                                                                                          Fax; 717 ·]2 8-9781
                                                                                          TIY: 877·585·1091

                                                                                          lIIIWW.po:a'.Org




        April 13,2012



        Mr. Tomas O. Puerzer
        U.S. Department of Justice
        Office of the Inspector General
        Philadelphia Regional Audit Office
        701 Market St., Suite 201
        Philadelphia, PA 19106

        Re: Response to Draft Audit Report dated March 9, 2012

    I   Dear Mr. Puerzer:
    I   The Office of the Inspector General of the U.S. Department of Justice (DOl) recently conducted
        an audit offoux projects funded by the DOI's Office on Violence Against Women (OVW) and
        administered by the Pennsylvania Coalition Against Rape under technical assistance cooperative
        agreement numbers 2008· TA-AX~K021, 2009-T A-AX-K042, 2009~TA-AX-KOOS, and 2009·
        TA-AX-K024.

        PCARreceived the draft audit report on March 9, 2012. In some instances we agree with the
        auditor's findings and recommendations; however, there are a number of instances where we do
        not agree with the findings. We believe there were a number of inaccuracies in the audit report
        that we would like to clarify and have corrected, based on additional infonnation or facts that we
        have included in this response.

        As a preliminary maner, we would like to have the reference to the nillIle of the AEquilmi pruject
        in the description of the objectives for the awards on page i of the draft report corrected from
        AEquitas Center for the Prosecution of Violence Against Women" to "AEquitas: The
        Prosecutors' Resouxce on Violence Against Women". Additionally, pages 3 and 4 of the draft
        report states that I) "AEquitas previously existed as the American Prosecutor's Research
        Institute (APRI)", 2) "some training couxse titles that APR! offered, including the National
        Institute on the Prosecution of Domestic Violence and the Nationallnstitute on the Prosecution
        of Sexual Violence, have evolved into the training courses AEquitas offers today" and 3)
        AEquitas officials " also told [OIGl that it was APRI personnel who initiated the idea to re-start



                                      Leadership I Advocacy        I Action

                             


                                                   30

    the program under PCAR (an NDAA partner in the APR! program) using the new name of
    AEquitas". Each of these statements is factually incorrect and it is unclear why APRl is
    referenced in, or relevant to, the draft report. While it is true that some of the staffmcmbers
    PCAR hired for our newly created AEquitas project were former employees of APRl, AEquitas
    is wholly independent of. and is in no way a continuation or a "re-start" of, APIU. which still
    exists today. The OlG audit findings of a completely independent agency that was in no way
    managed by PCAR should not be referenced in PCAR's report. Accordingly, we believe that the
    reference to APRl in the draft report is miSleading and should be removed.

    PCAR's responses to the 9 recommendations included in the draft report follow below.

    Recommendation No.1 : Ensure peAR strengthens internal controls whcn ordering,
    receiving, and paying for equipment and supplies.

    We partially concur with this recommendation. The PCAR offices located in Enola, PA have
    proper inl.emal controls in place for equipment and supplies purchases.

    Staffmemhers are required to complete a Supply Requisition form and have it approved by their
    supervisor before it is given to the Office Manager to order supplies. When supplies are received
    the Office Manager reviews the packing lists to insure that all equipment that was ordered was
    received and billed at the corre(.1. price. If tiu:re are no errors the invoice is given to the finance
    department for processing. A Disbursement Voucher (also known as a Check Request Form) is
    completed. and attached to all invoices. Every Disbursement Voucher must be approved by the
    Vice President of Finance and the CEO, the Vice President ofRcsowees or the Vice President of
    Services before a check is cut

    Equipment purchase requests at the Enola, PA location are submitted to the IT Department.
    When a request is received a Purchase Order Form is completed by the Information Technology
    Specialist and must be signed by the Director of IT indicating approval before the equipment is
    ordered. When the equipment is received the Information Teclmology Specialist reviews the
    packing list to insure that all equipment that was ordered was received and billed at the correct
    price. If there are no errors the invoice is given to the finance department for processing. A
    Disbursement Voucher is completed and attached to all invoices. Every Disbursement Voucher
    must be approved by the Vice President of Finance and the CEQ, the Vice President of
    Resources or the Vice President of Services before a check is cut.

    We concur that we do not have proper segregation of duties at our Washington, DC office
    location. This applies only to Grant Award Number2009·TA·AX·K024. This is due to the fact
    that there are only four staff members working at this location. Due to the limited number of
    persOlUlel working at the Washington, DC location, it is not possible to have different staff




                          




                                                 31 

    members responsible for authorizing, ordering, and receiving supplies and equipment purcbases.
    However, the Project Director at the Washington, DC office approves all Disbursement
    Vouchen before they are forwarded to the Enola office for processing. All check requests for all
    expenses incurred under Grant Award Number 2009-TA-AX-K024 are processed through the
    Enola. PA office. Every Disbursement Voucher must be approved by the Vice President of
    Finance and the CEO, the Vice President of Resources or the Vice President of Services before a
    check is cut.

    Recommendation No.2: Remedy 5298,980 in unsupportable consultant costs.

    PCAR partially concurs with this recommendation. PCAR was not aware of the requirement that
    time and effort reports were required for consultants. This requirement is not clear in the DIP
    Financial Guide. In Chapter 12. Retention and Access Requirement for Records, in the 2009
    DIP Financial Guide, paragraph two is as follows:

           1. Coverage. The retention requirement extends to books of original entry, source
               documents supporting accounting transactions, the genera.lledger, subsidiary ledgers,
               personnel and payroll records, cancelled checlcs, and related documents and records.
               Source documents include copies of all awards, applications, and required recipient
               financial and narrative reports. Personnel and payroll records shall include the time
               and attendance reports for all individuals reimbursed under the award, whether they
               are employed full time or part time. Time and effort r eports ar e also required for
               consultants.

    PCAR staffintcrpreted this stalement to mean that if individuals were hired through a temporary
    staffing agency to perfonn any of the job duties of vacant positions listed in the approved
    Personnel section of the budget, then time sheets would need to be completed by those temporary
    employees.

    As stated on page 9 of the OlG draft report, PCAR began requiring time and effort reports for all
    consultant activity in response OlG's finding. This change occurred immediately when the DIG
    auditors were still conducting their fieldwork and communicated this requirement to PCAR staff.
    The effective date of this change was December 22, 2010. All consultants are required to submit
    a time and activity log with all invoices to support the hours being billed.

    Although PCAR did not require time and effort logs for independent contractors, PCAR did
    monitor all consultant work. All independent contractors were required to sign a contract
    outlining their scope of work. PCAR staff insured that the activities outlined in each consultant
    contract were completed. We do have documentation to support that consultants participated in
    and completed the tasks as outlined in our work plans and budgets approved by OVW.




                         




                                              32 

    Award Number 2009-TA-AX-K024

    Page 8 of the draft report classifies $26,550 in consultant costs allocable to this award as
    unsupportable consultant costs sin~ the OlG "found no documentation of the observations or
    records of consultants' time spent on award-related activities". We indicated that we could
    account for the consultant time as a result of the fact that we were in attendance at the training
    events with them., but we did not previously provide documentation as it was not requested by
    the OIG in the course of their audit; such documentation is enclosed as Attac1unents Al through
    A9.

    Award N umber2008-TA-AX-K021

    The total amount questioned under this award, $228,530, is the amount PCAR paid to the
    National Organization of Sisters of Color Ending Sexual Assault (SCESA) for subcontracted
    services.

    When PCAR entered into this contract with SCESA we wanted to insure that we were collecting
    sufficient documentation to satisfy OlP financial requirements. PCAR staff contacted the OJP
    Comptroller's office to discuss what documentation should be collected from SCESA to support
    the expenditures for which they would be requesting reimbursement. PCAR staff specifically
    asked OJP staffifwe would be required to collect timeshtetlpayroll data for SCESA staff
    members charged to the grant. OlP staff told PGAR staff this was not necessary. PCAR staff
    asked OlP staff if a quarterly report including expenditures totals by budget category was
    sufficient documentation and OlP comptroller staff confirmed that this was sufficient
    documentation. Attachment B 1 is an email exchange dated 1122108 between peAR's Vice
    President ofFinan~ and SCESA's Executive Director documenting these questions/concerns as
    well as documentation of the telephone conversation with the OJP Comptroller's Office staff
    member on 1123/08 (Attachment B2). As a result of our conversation with OJP staff, PCAR
    required SCESA to submit quarterly repots. All quarterly reports were submitted by SCESA
     (Attachment B3). Due to the fact that PCAR collected the documentation required per direct
     conversations with OJP staff, these consultant costs should not be considered unallowable.

    Award Number 2009-TA-AX-K042

    We have provided a list of the questioned consultant payments totaling $11 ,900 under this award
    as Attachment Cl. The detail to support these consultant payments are as follows :




                          




                                                33 

    Particjpation in Experts discussion held on December \5, 2009 - $400
    We have attached the meeting notes for the Experts Discussion teleconference that was held on
    December 15, 2009. The attendees are documented in these notes (Attachment C2). Each of the
    participants was paid $100 for their participation.

    Participation in Experts discussion held on February 11. 2010 - $500
    We have attached the meeting notes for the Experts Discussion teleconference that was held on
    February II, 20 10. The attendees are documented in these notes (Attachment C3). Each of the
    participants were paid $1 00 for their participation.

    Participation jn Focus Group held on June 11, 20 10 • $700
    We have attached the meeting notes for the focus group that was held on June II, 2010. The
    attendees are documented in these notes (Attachment C4). Each of the focus group participants
    was paid $100 for their participation. We have also attached signed invoices and consent forms
    to docwnent their attendance (Attachments C5 through CII).

    Participation in Just Rural Conference held hme 8-10, 2010 - $10,300
    We have attached the conference Agenda listing workshop topics, presenters and descriptions
    (Attachment e12) along with a summary of activities performed by each consultant paid for
    participating in the Just Rural Conference (Attachment C13).

    Award Number 2009-TA-AX-KOOS

    We have provided a list of the questioned consultant payments totaling $32,000 under this award
    as Attachment DI. The detail to support these consultant payments are as follows:

    Project Consultation to include Plan Development Attend Meetings and Conduct Focus Groups - 131 ,600
    We have attached a copy of the budget approved by OVW that, under the Consultant section,
    includes a line item for $54,900 for these consultation services (Attachment 02). We have
    attached a copy of the signed contract that outlines the services to be provided by the consultant
    (Attachment OJ). '!be consultant provided the following services: assisted in protocol
    development for focus groups, assisted with the development of online assessment, assisted in
    synthesizing online assessment results, facilitated summits, assisted in training other facilitators,
    assisted with follow up to summits via conference calls with participants, drafted monthly
    updates for progress report to £under, assisted in synthesizing summit notes to final report. We
    have attached the following documents prepared by the consultant to support the completion of
    major deliverables: Focus Group Goals and Questions (Attachment D4), Suggested Strategy for
    Focus Group Data Collection (Attachment 05), Pre-Summit Questionnaire (Attachment 06),
    Detailed Focus Group Facilitator's Agenda (Attachment 07), Advocacy Symposium Project
    draft report synthesizing summit notes (Attachment 08).




                          




                                                34 

    Participation in SA Advocacy Summit held on Octoberl8. 2010 - $400
    We have attached a copy of the budget approved by OVW that, under the Consultant section,
    includes a line item for $1 00 stipends for Focus Group Participants (Attachment D2). Each of
    the participants were paid $1 00 for their participation. We have attached signed consent forms to
    document their attendance (Attachment D9).

    Recommendation No.3: Ensure PCAR adequately monitors consultants.

    peAR concurs with this recommendation. A:; stated on page 9 of the OIO draft report, PCAR
    began requiring time and effort reports for all oonsultant activity in response OIO's £inding. This
    change occurred immediately upon communication to PCAR staff when the OIG auditors were
    still conducting their fieldwork. The effective dale of this change was D~mber 22, 2010. All
    consultants L"e required to submit a time and activity log with all invoices to support the hours
    being billed. PCAR staff responsible for overseeing each project review this log to determine if
    the charges are legitimate before they forward it to the fllllUlce departtnent for payment.
    Consultants are reimbursed based. on the actual amount ofhours worked as outlined in their time
    and activity logs.

    Recommendation No.4: Ensure consultants bill b ased on actual cooperative agreement
    expenditures.

    As we indicated under Reoommendation No.3 above, in order to insure that consultant's bill
    based on actual award-related activities as outlined in the cooperative agreement, all consultants
    are required to submit a time and activity log with all invoices to support the hours being billed.
    PCAR staff responsible for overseeing each project review this log to determine if the charges
    are legitimate before they forward it to the finance department for payment. Consultants are
    reimbursed based on the actual amount of hours worked as outlined in their time and activity
    logs.

    Recommendation No.5: Ensure PCAR develops and reviews consultant rates on a case-by­
    case basis and ensures rates are reaso nable and allowable in accordance with OMB cost
    principles.

    PCAR partially concurs with this recommendation. Page 10 of the draft report notes that PCAR
    "did not obtain quotes or bids for consultant services. Instead, we found that PCAR treated the
    $450 maximum for consultant services established by the OJP Financial Guide as its standard
    rate and paid all of its consultants at this mte, and pre-printed its standard consultant contracts
    with the $450 rate." PCAR agrees that we did not obtain quotes in all cases for all consultants
    paid under the audited contracts. However, PCAR will obtain quotes and will also obtain bids




                         




                                               35 

    for consulting services when such services are reasonably available from multiple providers, as
    contemplated by the DIP Financial Guide. However, many of the paid consultants utilized by
    PCAR have very specialized and unique areas of expertise that, in almost all cases, commands
    greater than a $450 rate, so that the $450 rate represents a discount Additionally, PCAR does
    not use standard consulting CQUtracts preprinted with a $450 rate. The contract reviewed by the
    OIG auditors was a sample contract with the $450 rate used as an example.

    Recomm endation No.6: Remedy $32,085 in unallowable expenses.

    Awar d Number 2009-TA-AX-K024

    Lodging - $12.218
    PCAR does not concur with this recommendation. Page 13 of the draft report identifies $1 2,218
    in lodging costs in connection with a 2009 training event in Miami, Florida as unallowable
    expenses since the rate per night, per guest was $149 was in excess of'ihe prevailing federal
    lodging rate at the time of the event, in accordance with the OJP financial guide" of$128 per
    night, per guest. We note that the 2009 OJP financial guide, which is applicable to these costs,
    did not use the term "prevailing govemment rate," instead page 73 of the guide specifies that " all
    OIP-funded contracts for events that include 30 or more participants (both Federal and non­
    Federal) lodging costs for any number of attendees requiring lodging must not exeeed the
    Federal per diem rate for lodging", page 125 of the guide states that "lodging costs in excess of
    Federal per diem rate" are unallowable costs and the definition of "Reasonable" in the guide
    notes that the "exception to this definition is lodging costs for events of 30 or more participants,
    when the event is funded with an OJP award.. For these events, reasonable is defined as the
    Federal per diem rate for lodging." The GSA published rate for the time the event took place
    (NovemberlDecember 2009) was S)49, accordingly we would request that these lodging costs be
    deemed allowable expenses.

    Meals- $16.431
    peAR docs not concur with this recommendation. Page 15 of the draft report identifies $16,431
    in food and beverage charges as unallowable expenses since they did not comply with
    requirements of the OJP Financial Guide as they exceeded "150 percent of the locality M&IE
    rate per meal per attendee". The 2008 OJP Financial Guide did not include the I SO percent
    limitation. which were implemented in the 2009 OJP Financial Guide published in October of
    2009. Additionally, OVW granted an exemption to compliance with the 1SO percent limitation
    in the 2009 OJP Financial Guide in the email (Attachment El). According we would request
    that these food and beverage charges be deemed allowable expenses.




                          




                                                36 

    Award N umber 2009-TA-AX-K042

    Lunch - $367
    We do concur with the calculation of the $367 overage. However, on page IS, under section
    1) Lunch, it states that PCAR charged 469 percent of the $13 lunch per diem. This is incorrect.
    The total per diem in Denver Colorado in June 2010 was $66 (Attachment Fl). The lunch
    portion of the $66 per diem is $16, not $13. Please change the language in the paragraph to
    381% of the $16 'lunch per diem.

    Refreshments - $3 .069
    We do not concur with the calculation of the $3,069 overage. We calculate the overage amount
    to be $2,825.61 (AttachmentF2). Also included on Attachment F2 is a calculation of the savings
    generated in the amount of $3,201 from concessions negotiated by PCAR staff for a free
    continental breakfast on June 9 111 and June 10111 . The cost of the breakfast was not charged against
    this grant as a result of staff negotiations with the botel. In addition to the savings from hotel
    concessions, our invoice from the Westin Tabor Center reflects a credit in the amount of
    $1,715.96. PCARapplied this credit against lodging expense in our accounting system
    (Attacbment F3). We could instead apply this credit against the cost of refreshments to reduce
    the amount of the overage charged to the grant.

    Recommendation No.7: R emedy $5,246 in unrea sonable expenses.
    PCAR does not concur with this recommendation. PCAR believes that the existing knowledge
    of the NCJFCJ administrative assistant and the ability to utilize ber selVices on an hourly as­
    needed basis justified the premium over the rates of alternative providers, who would likely have
    taken more time to accomplish the same task and been engaged for the entire work day during
    the period regardless of whether fully utilized or not, thereby eliminating any theoretical cost
    savings. Additionally, the administrative assistant was employed by another OVW grantee, the
    NCFCJ, and the $49.35 rate was intended to compensate NCFC} for the cost of any time utilized
    and based on not just the actual salary (as the draft report contemplates), but also the actual
    occupancy, operating and benefits expenses allocable to the administrative assistant, all ofwhlch
    were included in the NCFCJ's grant.

    Recommendation No.8: Ensure that peAR properly accounts for, .-eports, and applies
    program income generated from cooperative a greement funded activities including the
    $64,970 identified in this report.

     PCAR does not concur with this recommendation. Page.20 of the draft report notes that the 010
     identified transactions in the general ledger that appeared to represent program income earned as
     a result of award-funded activities, specifically fees earned for providing training or expert
     witness services totaling $64,970. The OIP Financial Guide provides that all income generated




                          




                                                 37 

    as a direct result of an agency"funded project sball be deemed program income. The income in
    question was not generated as a direct result of the agency"funded project for several reasons:

                  1) 2009-T A-AX· K024 contemplated the provision of services to grantees which
           includes state and local governmental and non-government agencies, but did not
           encompass other federal agencies, international governmental and non-governmental
           agencies or for profit entities. Each of the identified programs was conducted in
           connection with entities that fell into the latter category and were accordingly outside of
           the scope of the agency-funded project

                    2) No OVW funds were expended in connection with the generation of such
           income. Although members of the AEquitas staff were involved in the projects, their
           time was compensated by these client and associated costs were also covered by the
           clients.

                   For example, Page 21 of the draft report noted that with respect to the Victims'
           Rights and the Collection of Evidence, January 19-20, 2011 - Training event in Dubai,
           United Arab Emirates that ''The request was made by UAE. Ministry of Justice to the
           American Bar Association Rule of Law who in tum requestedPCAR's presence and paid
           for AEquitas participation." PCAR did not receive any compensation in respect of this
           event and Jcnnifer Long attended during her personal time and she was only reimbursed
           for her travel-related expenses.

    Additionally, the OVW was not only aware of, but encouraged PCAR to conduct and generate
    non-program income through, these types of training programs.

    Recommendation No. 9: Ensure p e AR do es not charge any indirect costs as direct costs
    and, if necessary, p e AR obtain an indirect cost rate to cover the indirect costs.

    p eAR does not concur with this teCQrnmendation. peAR cannot apply for a federally approved
    indirect cost rate due to the fact that several of oW' state funder.; do not allow indirect costs to be
    charged to their grant awards via an indirect cost rate and the majority of oW' funding comes
    from state agencies. The following is an explanation ofPCAR's process for allocating indirect
    costs.

    Building rent and custodial services are allocated through a two-step process based on square
    footage and the percentage. of staff hours worked in each grant. Costs are allocated firs! based on
    the square footage percentage per employee times the total rent expense. Secondly, that expense
    is then allocated based on the percentage of time the employee spends working in each grant.
    This allocation is done on a monthly basis. Detailed timesheet records are used to calculate the
    percentage oftime the employee spends working in each grant every month.




                          




                                                 38 

    Other indirect costs such as office supplies, rental/maintenance of equipment, equipment lease,
    telephone, internet, printing of letterhead and envelopes, postage, insurance, etc. are allocated
    based on the percentage oftiroe employees spend working in a grant. This allocation is done on
    a monthly basis using detailed timesheet records to calculate the percentage of time the employee
    spends working in each grant dwi.ng the month.

    We believe using salaries as the distribution base for our allocation is acceptable per our
    interpretation of OMB Circular A-122, Attachment A, Section D.4. Direct Allocation Method,
    which states direct allocation methodology is acceptable, provided each indirect cost is promted
    using a distribution base that is established in accordance with reasonable and consistently
    applied criteria, adequately supported by current data of the organization.

    PCAR's cost allocation method has been reviewed and approved by our independent auditors.
    This is also an approved method of allocating shared cost per the Office on Violence Against
    Women..Gnmts Financial Management Division (GFMD). PCAR staffparticipated in a
    Financial Management Training held by the Resource Sbaring Project in November 2011. At
    this training GFMD staff confinned that shared costs could be allocated based on the method
    outlined above as long as the method for allocating costs is consistent, verifiable, and the
    supporting documentation is maintained for future auditing purposes. PCAR's cost allocation
    method meets all of these criteria.

    We appreciate the opportunity to review and comment on the draft audit report. Feel free to
    contact me directly if you require additional information or have any questions related to our
    response.




    Delilah Rumburg
    Chief Executive Officer




                                                                                                         
 
 


                                               39 

                                                                                                    APPENDIX IV 

 
                    OFFICE ON VIOLENCE AGAINST WOMEN 

                   RESPONSE TO THE DRAFT AUDIT REPORT 

 
       ",.                                                   u.s. Department of Justice
                                                             Office on Violence Against Women
             ...
                                                             Wt/.\'hillglon. D.C. 20530


                                                                                          March 28, 2012


    MEMORANDUM


    TO:                       Thomas O. Puerzer
                              Regional Audit Manager
                              Philadelphia Regional Audit Office

    FROM:                     Susan B. Carbon
                              Director
                                                     @'
                              Office on Violence Against Women

                              Rodney Samuels       -fl.,3
                              Audit Liaison/Staff Accountant
                              Office on Violence Against Women

    SUBJECT:                  Office on Violence Against Women Technical Assistance Program
                              Cooperative Agreements Administered by PeIUlsylvania Coalition
                              Against Rape (PCAR), Enola, Pennsylvania


    This memorandum is in response to your correspondence dated March 09, 2012 transmitting
    the above draft audit report fo r the Pennsylvania Coalition Against Rape (PCAR). We consider
    the subject report resolved and request written acceptance of this action from your office.

    The report contains nine recommendations and $298,980 in unsupported costs, $32,085 in
    unallowable costs, and $5,246 in unreasonable costs charge to the grant. The Officc on
    Violence Against Women (OVW) agrees with the recommendations and is committed to
    working with the grantee to address each item and bring them to a close as quickly as possible.
    The following is an analysis of the audit recommendations:


        1.         1!:nsure that peAR strengthens its internal controls when ordering, receiving
                   and paying for equipment and supplies.

                   OVW does agree with this recommendation. We will coordinate with PCAR to
                   ensure that they strengthen its internal controls when ordering, receiving and paying
                   for equipment and supplies.




                                                                                                                 
                                 

                                                       40

    2.   Remedy $298,980 in unsupported consultant costs.

         OVW does agree with this recommendation. We will coordinate with peAR to
         remedy the $298,980 in unsupported consultant costs.

    3.   Ensure peAR adequately monitors its consultants.

         OVW does agree with this recommendation. We will coordinate with peAR to
         ensure that they monitor its consultants.

    4.   Ensure consultants bill based on actual cooperative agreement expenditures.

         OVW does agree with this recommendation. We will coordinate with peAR to
         ensure consultants bill based on actual cooperative agreement expenditures

    5.   Ensure peAR develops and reviews consultant rates on a case-by-case basis
         and ensures tbat rates are reasonable and allowable in accordance with OMB
         cost principles.

         OVW does agree with this recommendation. We will coordinate with peAR to
         ensure that they develop and review consultant rates on a case-by-case basis and
         ensure that rates are reasonable and allowable in accordance with OMB cost
         principles.

    6.   Remedy $32,085 in unallowable expenses.

         OVW does agree with this recommendation. We will coordinate with peAR to
         remedy the $32,085 in unallowable expenses.

    7.   Remedy $5,246 in unreasonable expenses.

         OVW does agree with this recommendation. We will coordinate with peAR to
         remedy the $5,246 in unreasonable expenses.

    8.   Ensure that peAR properly accounts for reports and applies program income
         generated from cooperative agreement funded activities including the $64,970
         identified in this report.

         OVW does agree with this recommendation. We will coordinate with peAR to
         ensure that they properly account for reports and applies program income generated
         from cooperative agreement funded activities including the $64,970 identified in
         this report.




                                             2



                       




                                             41 

          9.      Ensure that peAR does not charge any indirect costs as direct costs and, if
                  necessary, they obtain an indirect cost rate to cover the indirect costs.

                  OVW does agree with this recommendation. We will coordinate with PCAR to
                  ensure that they do not charge any indirect costs as direct costs and, if necessary,
                  they obtain an indirect cost rate to cover the indirect costs.



    We appreciate the opportunity to review and comment on the draft report. We will continue to
    work with PCAR to address the recommendations. If you have any questions or require
    additional information, please contact Rodney Samuels of my staff at (202) 514-9820.


    cc:        Louise Duhamel, Ph.D.
               Acting Assistant Director
               Audit Liaison Group
               Justice Management Division

               Angela Wood
               Budget Officer
               Office on Violence Against Women

               Kimberly Galvan
               Program Specialist
               Office on Violence Against Women




                                                       3


                                                                                                          
 




                                                       42 

                                                               APPENDIX V
 
    OFFICE OF THE INSPECTOR GENERAL ANALYSIS AND SUMMARY OF
              ACTIONS NECESSARY TO CLOSE THE REPORT


       The OIG provided a draft of this audit report to the Pennsylvania
Coalition Against Rape (PCAR) and the Office on Violence Against Women
(OVW) for review and comment. PCAR’s response is included as Appendix
III of this final report, and OVW’s response is included as Appendix IV. The
following provides the OIG analysis of the response and summary of actions
necessary to close the report.

Analysis of PCAR’s Response

       In response to our audit report, OVW concurred with all of our
recommendations and requested resolution of each recommendation stating
that it would work with PCAR to address the recommendations. While
PCAR’s response stated that it agreed or partially agreed with the auditor’s
findings and recommendations in some instances, PCAR also stated that
there were instances where it did not agree with the findings. In addition,
PCAR stated that it believed there were a number of inaccuracies in the audit
report and provided clarification requesting corrective action based on
additional information or facts that were included within the response.
Specifically, PCAR requested two changes to the report regarding a project
supported through the grant and the discussion of another agency
associated with PCAR. We address these requested changes before
providing an analysis of responses to each recommendation.

      Regarding the first requested change, PCAR requested that we correct
the name “AEquitas Center for the Prosecution of Violence Against Women”
to “AEquitas: The Prosecutor’s Resource on Violence Against Women.”
Although the name used throughout PCAR’s grant documentation was the
AEquitas Center for the Prosecution of Violence Against Women, we have
revised this final audit report to reflect the changed name.

       For the second matter, PCAR’s response said that statements within
our report regarding the American Prosecutor’s Research Institute (APRI)
were factually incorrect and that it was unclear why APRI was referenced in
or relevant to the report. As discussed in our report, APRI was a
collaborative effort between the National District Attorneys Association
(NDAA) and PCAR to create the National Institutes on the Prosecution of
Domestic and Sexual Violence. In its application to establish AEquitas, PCAR
stated that its proposal was designed to create a single entity to assist
prosecutors to effectively prosecute these complex crimes against women.
This was also the goal for APRI. Also in its application, PCAR stated that

                                     43

AEquitas will refine and offer classes for both the National Institute on the
Prosecution of Domestic Violence (NIPDV) and the National Institute on the
Prosecution of Sexual Violence (NIPSV). These are the same titles of
courses previously offered by APRI. In addition, PCAR stated in its response
that AEquitas is in no way a continuation or restart of APRI. However,
PCAR’s response contradicts statements of AEquitas officials, including the
Director who told us that AEquitas was a continuation of the work previously
done at APRI. Further, over half of the AEquitas staff were formerly
employees of APRI or NDAA. In addition, we were unable to confirm PCAR’s
statement that APRI continues to exist because PCAR did not provide any
documentation to prove this contention. As a result, we reviewed the
information in our report and determined it is factually correct based on our
audit results.

Summary of Actions Necessary to Close Report

1. Resolved. OVW agreed with our recommendation that PCAR strengthen
   its internal controls when ordering, receiving, and paying for equipment
   and supplies. OVW stated that it will coordinate with PCAR to ensure that
   it will strengthen its internal controls.

  In its response, PCAR partially concurred with our recommendation
  stating that the offices in Enola, PA, have proper internal controls, while
  concurring that its Washington, DC, location lacked adequate separation
  of duties due to the fact that there are only four staff members at that
  location. PCAR also provided a discussion of the internal controls in place
  at its Enola, PA, location, stating that the Office Manager is responsible
  for ordering and receipt of supplies and the Information Technology
  Specialist is responsible for ordering and receiving equipment. However,
  during our fieldwork, we were told by PCAR officials that typically, the
  individual responsible for a purchase both performs the procurement and
  directly receives the items without a separation of duties. As a result, it
  appears that the procedures specified by PCAR in its response may not
  always be followed consistently, or this represents policy enacted since
  our audit or not provided during our audit. Further, we were not provided
  formal PCAR policies requiring the process PCAR described in its
  response. As a result, we determined that the internal controls should be
  strengthened and that formal policies should be implemented for all of
  PCAR’s locations.

  This recommendation can be closed when we receive documentation
  demonstrating that PCAR strengthened their internal controls over the
  ordering, receiving, and paying for equipment and supplies at both
  locations.


                                     44 

2. Resolved. OVW agreed with our recommendation to remedy the
   $298,980 in unsupported consultant costs. OVW stated that it will
   coordinate with PCAR to remedy these unsupported costs.

  In its response, PCAR partially concurred with our recommendation and
  stated that it was not aware of the OJP Financial Guide requirement that
  time and effort reports were required for consultants. Furthermore, PCAR
  stated it believed this requirement is not clear in the OJP Financial Guide.
  PCAR noted that although they did not require time and effort reports,
  they did monitor all consultant work. The OJP Financial Guide does not
  indicate that monitoring is an acceptable method of assuring the proper
  expenditure of funds for consultants. As we noted in our report, PCAR
  began requiring time and effort reports from its consultants in December
  2010.

  Additionally, PCAR’s response included explanations of consultant
  activities for each of the grants in question and attached documentation
  to its response. It also stated that we did not request such
  documentation that would help account for consultant time during our
  audit. However, this documentation, which we requested and reviewed
  during our audit, did not sufficiently support the questioned costs. The
  documentation PCAR attached to its response and provided during our
  audit included meeting notes, attendance sheets, and copies of the
  deliverables the consultants provided. This documentation does not
  satisfy the time and effort report requirement or account for all of the
  consultant time costs charged to the grant as required by OJP.

  Further, PCAR stated that it required quarterly reports from SCESA to
  support $228,530 based on telephone conversations with OJP. However,
  PCAR provided neither written authorization from OJP or OVW that
  authorized the waiver of the documentation requirement for these
  charges, nor authorization from OJP or OVW for the method PCAR used to
  account for the funds. We reviewed the PCAR Vice President for Finance’s
  hand-written notes regarding a discussion with OJP, but determined this
  was not sufficient documentation of DOJ’s waiver of the requirement. As
  a result, we consider these costs unsupported because we could not
  identify the support for the SCESA invoices, which appear to have been
  based on budgeted amounts rather than actual expenses incurred.

  This recommendation can be closed when we receive documentation that
  OVW remedied the $298,980 in unsupported costs.




                                     45 

3. Resolved. OVW agreed with our recommendation and will coordinate
   with PCAR to ensure that it will monitor its consultants.
 
   PCAR concurred with this recommendation in its response and stated that
   in response to the OIG bringing this issue to their attention during our
   fieldwork began requiring time and effort reports from its consultants in
   December 2010.

  This recommendation can be closed when we receive documentation of
  the completed activity logs and the certification by PCAR program staff
  before the payment by the PCAR finance staff.


4. Resolved. OVW agreed with our recommendation to ensure that
   consultants bill based on actual cooperative agreement expenditures.
   OVW stated that it will coordinate with PCAR to ensure that the bills
   represent actual expenditures.

  In its response, PCAR stated that the requirement for consultants to
  submit time and effort reporting will address this recommendation. It
  further stated that this change requires that the staff responsible for
  overseeing each project determine that the charges are legitimate before
  forwarding to finance for payment.

  This recommendation can be closed when we receive documentation that
  the controls are in place to ensure that consultants bill based on the
  actual cooperative agreement expenditures.

5. Resolved. OVW agreed with our recommendation to ensure that PCAR
   develops and reviews consultant rates on a case-by-case basis and
   ensure that the rates are reasonable and allowable in accordance with
   OMB cost principles.

  PCAR partially concurred with this recommendation. PCAR agreed that it
  did not obtain quotes in all cases paid under the audited contracts.
  However, PCAR also stated that it will obtain quotes and bids when the
  services are available from multiple providers. In addition, PCAR stated
  that for many of their consultants, $450 per day represents a discount
  from the rate they would ordinarily command. However, as noted in the
  report, PCAR did not have documentation to support this fact and the
  $450 per day rate paid to a number of the consultants represented a
  significant increase from their standard salary.




                                     46 

      In addition, PCAR stated that it does not use standard consulting
      contracts preprinted with a $450 rate, and that the contract we reviewed
      was a sample contract with the $450 rate used as an example. However,
      during our audit we requested a contract template from PCAR and the
      document we received in response to this request included this language:
      “Pay NAME $450 per day for X(X) days in attendance at the training plus
      X(X) travel or prep day for a maximum of X(X) days. The total payment
      of this contract is not to exceed X(X).”

      This recommendation can be closed when OVW ensured that PCAR 

      develops and reviews consultant rates on a case by case basis. 


6. Resolved. OVW agreed with the recommendation to remedy $32,085 in
   unallowable expenses and stated that it will coordinate with PCAR to
   resolve the unallowable expenses.

      PCAR responded to the recommendation according the following areas:

      Lodging - $12,218

      PCAR did not concur with this recommendation. PCAR’s response stated
      that the GSA published lodging rate for the time the event took place
      (November/December 2009) was $149. However, PCAR did not provide
      any documentation to prove its contention. As a result, we verified that
      according to the GSA website, the lodging rate in Miami, Florida in effect
      for November and December 2009 was $128 per night.9

      Meals - $16,431

      PCAR did not concur with this recommendation. In its response, PCAR
      stated that the 2008 OJP Financial Guide did not include the 2009 OJP
      Financial Guide reasonability criteria we used in our determination. In
      addition, PCAR stated that OVW granted an exemption to the criteria
      contained in the 2009 Guide. This exemption was provided via email on
      January 21, 2010 and applied to any contracts issued before December
      31, 2009. We note however that the email indicated that PCAR was not
      exempted from the 2008 OJP Financial Guide requirement that food and
      beverage charges must be reasonable (although the 2008 Guide provided
      no criteria by which to measure reasonableness). The exemption OVW
      granted to PCAR from adherence to the 2009 Guide food and beverage

                                                       
             9
         General Services Administration Fiscal Year 2010 Per Diem File,
http://www.gsa.gov/graphics/ogp/FY10_Per_Diem_File.xls



                                                          47 

requirements was granted after all four of the subject event contracts had
already been negotiated. In addition, the exemption was granted in
anticipation of OVW issuing its own food and beverage guidance. The
email also stated that PCAR should contact OVW if any contracts entered
into between December 31, 2009 and the issuance of the OVW guidance
exceeded the OJP guidance, and we were not provided any
documentation of such notification or approval from OVW. The
referenced OVW Financial Guide was not issued until 2012 and the food
and beverage section was taken verbatim from the 2009 OJP Guide. As a
result, in the absence of any other criteria by which to measure
reasonability as required by the 2008 Guide, we used the 2009 Guidance
as our criteria and continue to consider the $16,431 as questioned costs,
which included charges of over $48 per person for lunch and $26 per
person for break foods.

Lunch - $367

PCAR did not concur with our calculation. Upon review, we found that the
appropriate number for our calculations was in fact $16, not $13. We
have edited the report to reflect this change. While the actual overcharge
remains the same, the amount represents 381 percent of the allowable
$16 lunch per diem. The report has been corrected to reflect the proper
percent.

Refreshments - $3,069

PCAR did not concur with this calculation. PCAR’s response stated that
the overage amount should have been $2,825.61 not the $3,069 that we
calculated. The difference in amounts results from a discrepancy in the
number of attendees at the conference. During our fieldwork, we were
unable to verify that 97 individuals participated in the 2 subject breaks at
the conference. PCAR made an error in its original documentation and
the actual participants were 89 and our computation of the overage is
correct at $3,069.

Additionally, PCAR discussed in its response concessions negotiated by
the PCAR staff. These concessions included a $1,716.96 credit from the
hotel including a $1,254.68 credit for lodging expenses to offset the
rooms provided free of charge. The remaining $461.28 is a promotional
credit applied to the entire $18,092.18 invoice. However, we did not
apply those concessions to offset the overage paid for the refreshments
at the breaks because they do not specifically relate to the excess
refreshment charges.



                                   48 

  This recommendation can be closed when we receive documentation that
  OVW remedied the $32,085 in unallowable expenses.

7. Resolved. OVW agreed with the recommendation and stated it will
   coordinate with PCAR to remedy the $5,246 in unreasonable expenses.

  PCAR did not concur with this recommendation. PCAR stated that the
  existing knowledge of the NCJFCJ administrative assistant and the ability
  to use her services on an hourly basis justified the premium rates. In
  addition, PCAR stated that the $49.35 rate was designed to compensate
  another OVW grantee (NCJFCJ) for the cost of any time utilized and based
  not on not just the actual salary, but also the administrative assistant’s
  allocable occupancy, operating and benefits expenses. However, PCAR
  did not provide documentation for this computation in its response or
  during the audit. Further, PCAR later obtained similar administrative
  assistant services at a rate of $20 per hour. As a result, we do not have
  adequate support for the basis for the reasonability of the hourly wage
  that was paid.

  This recommendation can be closed when we receive documentation that
  OVW remedied the $5,246 in unreasonable expenditures.

8. Resolved. OVW agreed with the recommendation that PCAR properly
   accounts for, reports, and applies program income generated from
   cooperative agreement funded activities, including the $64,970 identified
   in this report.

  PCAR did not concur with this recommendation. In its response, PCAR
  stated that the grant anticipated providing services to grantees including
  state and local and non-governmental agencies. The response further
  stated that it was not expected to encompass other federal agencies,
  international governmental and non-governmental agencies or for profit
  entities, and as a result, these groups were outside of the scope of the
  agency-funded project. However, while these events may have been
  outside the scope of the project, we were not provided documentation
  that the costs for these events, including the use of OVW funded space
  and equipment were excluded as indicated in PCAR’s response.

  In addition, PCAR’s response stated that it received no compensation for
  the Dubai training event and the presenter attended on her own time and
  received only reimbursement for her travel-related expenses. However,
  when we requested a list of revenue-generating activities from PCAR
  during our audit, PCAR included this Dubai training on the list it provided.
  This implication, however, conflicted with results of our analysis of the


                                     49 

    accounting records, which did not identify revenue generated from the
    Dubai event. Because PCAR provided conflicting information regarding
    this event, it is not clear whether it generated any revenue.

    Revenue generated from these events were not reported as program
    income as required by FFRs. According to grant documentation we
    obtained during our audit, it appears that OVW-funded resources,
    including space and equipment, were used in these events, although
    PCAR claimed in its response that these were outside the scope of the
    project. As a result, our position with respect to the program income
    remains that the income should be reported on the FFRs because it
    derives primarily from Department-funded activities.

    This recommendation can be closed when we receive documentation that
    OVW remedied the $64,970 in program income and ensured that proper
    controls are in place to ensure that future income is reported and
    properly applied.

9. Resolved. OVW agreed with the recommendation to ensure that PCAR
   does not charge any indirect costs as direct costs and, if necessary,
   obtain an indirect cost rate.

    PCAR did not concur with this recommendation and stated that they could
    not apply for a federally approved indirect cost rate due to the fact that
    several of their state funders do not allow indirect costs to be charged to
    their grant awards via an indirect cost rate. Our recommendation does
    not suggest that an indirect cost rate be used by PCAR in charging its
    other funders, but addresses indirect costs being charged to the
    Department’s grant as direct costs, which is not allowable.

    In addition, PCAR’s response included a discussion of their allocation of
    indirect costs and cites the OMB Circular A-122, Attachment A, Section
    D.4 as support. We agree that the methodology is in fact valid; however
    the approval of this rate by a cognizant federal agency is missing. Our
    concern is that the PCAR’s current process is not in accordance with these
    regulations and proper procedure must be followed for indirect cost
    allocation and rates. As a result, indirect costs cannot be charged as
    direct costs.

    This recommendation can be closed when we receive documentation that
    OVW remedied the charging of indirect costs in the direct cost category
    and, if necessary, PCAR obtains an approved indirect cost rate to allow
    the charging of indirect costs.   
 


                                      50 

